IN THE SUPREME COURT OF THE UNITED STATES
No. 19-1279
Jaxp LaTunNBn,

TRpASURER oF

rup Srern on'KaNsas,
Petitioner,

V.

UNtmn Ster:ps op AupnrcAAND ANlnna LEA, riv HER oFFrcrAL cApAcrry
as AuortoR oF THE SrarB op ARNaNsas,
Respondents.

CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Reply Brief for Petitioner, which was prepared using Century
Schoolbook 12-point typeface, contains

2,962

words, excluding the parts of the

document that are exempted by Rule 33.1(d). This certificate was prepared in
reliance on the word-count function of the word-processing system (Microsoft
Office Word 2013) used to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 5,2020.

q*

r&*aWfL:*
,d

David C. Frederick
Counsel of Record for Petitioner

6^

